Q@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

STEPHEN B. PENCE and THOMAS BEAN,
Petitioners,
v.
‘VNB NEW YORK, LLC, AS SUCCESSOR
BY MERGER TO VNB NEW YORK CORPORATION,
AS SUCCESSOR IN INTEREST TO
THE PARK AVENUE BANK,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI and RULE 12.6 LETTER in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 3247 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS . ( ) Arua LK ¢ 2 L
My Comm. Exp. September 5, 2023,

Affiant 40013

    

Notary Public
